IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
DAVID P. MORAN,
Petitioner,
v.

CASE NO. 5D20-1177

STATE OF FLORIDA,
Respondent.
DATE: May 29, 2020
BY ORDER OF THE COURT:
ORDERED that the Petition for Writ of Habeas Corpus, filed May 18
2020, is denied.

/ hereby certify that the foregoing is
(a true copy of) the original Court order.

e
SANDRA B. WILLIAMS, CLERK

Panel: Judges Edwards, Grosshans, and Sasso
cc:
Office of the Attorney
General

David P. Moran

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
DAVID P. MORAN,
Petitioner,
v.

CASE NO. 5D20-1177

STATE OF FLORIDA,
Respondent.
DATE: June 19, 2020
BY ORDER OF THE COURT:
ORDERED that Petitioner's Motion for Rehearing, Certification, and/or Written
Opinion filed June 11,2020, is denied.

I hereby certify that the foregoing is
(a true copy of) the original Court order.

ISi

I®
\*/vl

mi;

1 “Tc*

SANDRA B. WILLIAMS, CLERK
Panel: Judges Edwards, Grosshans, and Sasso
cc:
Office of the Attorney
General

David P. Moran

IN THE CIRCUIT COURT OF THE
NINTH JUDICIAL CIRCUIT, IN AND
FOR ORANGE COUNTY, FLORIDA
CASE NO.:
DIV.:

STATE OF FLORIDA,
Plaintiff,

2016-CF-6177-A-O
10

v.
DAVID P. MORAN,
Defendant

QRDER DENYING MOTION TO STRIKE ORIC.TNAF MOTION FOB BBrnMoincp . t.~.
AND AMENDED MOTION FOR RECONSIDERATION
This matter came before the Court upon the filing of Defendant’s “Request to Strike
Original Motion for Reconsideration and Amended Motion for Reconsideration of Motion to
Suppress,” filed on March 11,2020,

pursuant to Florida Rule of Criminal Procedure 3.190(h).

PROCEDURAL HISTORY
On July 27, 2017, Defendant was adjudicated guilty of attempted first degree murder of a
law enforcement officer with

weapon (count 1); aggravated battery with a deadly weapon or

causing great bodily harm to a law enforcement officer (count 2); aggravated fleeing or attempting
to elude a law enforcement officer causing injury or damage (count 3); and banery (count 4). He
was sentenced on September 15, 2017, to life on count 1,

consecutive to counts 2, 3, and 4; 25

years with a 5-year minimum mandatory on count 2; 15 years on count 3; and time served on count
4. Defendant appealed and the appellate court affirmed with the Mandate issued
2019. Moran v. State, 278 So. 3d 687 (Fla. 5th DCA 2019).

l

on March 25,

■ANALYSIS AND RTTT.TNfi
Before trial, on April 13,2017, Defendant filed a “Motion to Suppress Statement Made by
Accused in the Hospital on May 18, 2016.” On April 28, 2017, the Court denied the motion to
suppress and failed to rule on Defendant’s Motion to Reconsider the motion to
July 13,2017. Defendant now asks the Court to strike the Motion to Reconsid

suppress, filed on

er filed on July 13,

2017, and consider the instant Amended Motion for Reconsideration of Motion to Supp

ress.

Under Fla. R. Crim. P. 3.192, a motion for rehearing may be filed within 10 days of the
order subject to appellate review. The trial court’s order disposing of the motion shall be filed
within 15 days ofa response to the motion, if filed, but not later than 40 days from the date of the
order of which rehearing is sought. The original motion for reconsideration

was filed later than 10

days after the order denying the motion to suppress. In addition, it has not only been well past the
40 days from the date in which the Court denied the motion to suppress, ithas been nearly 3 years.
The Court was not required to rule on the motion to reconsider. See Hunter v. Dennies Contracting
Co., Inc., 693 So. 2d 615, 616 (Fla. 2d DCA 1997) (Holding that the trial court has inherent
authority to reconsider any of its nonfinal rulings prior to the entry of the final order terminating
the action, but it is not required to exercise that authority and its decisions whether to do so are not
reviewable.). Defendant also did not appeal the court’s denial of the motion to
suppress.
Defendant’s request has now been rendered moot, as the Court denied the
motion to suppress and
tnal proceeded. The motion for reconsideration was deemed denied once the Court failed to rule
on the motion within the allotted time period of 40 days. Defendant was then found guilty by
jury, and was adjudicated and sentenced.

2

*

Furthermore, because the time in which to appeal the denial of the motion to suppress has
passed, the order denying the motion to suppress has become final and this Court lacks jurisdiction
to reconsider it.
Finally, Defendant raispd the issue of the denial of the motion to
**

suppress on direct appeal.
Brirfof pliant. The Fifth District Court of Appeal held in Moran v. State, No. 5019-

1833,2020 WL 250406 at *1 (Fla. 5th DCA Jan. 17,2020), “Moran’s direct appeal
*

-.i

'

was evaluated

t’r

under the procedures emanating under Anders, which, among other things, requires an appellate
court independently to ‘examine the record to the extent:t necessary to discover any errors apparent
■ T

»'

on the face of the record.’” (quoting State v. Causey, 503 So. 2d'321,322 (Fla. 1987)). The record
was reviewed for any erroJ'aid ihe Fifth'District found that Defendant’s claim regarding the
motion to suppress lacke,} merit “(AJny error in the trial court’s denial of the suppression motion
was necessarily considered by this court on direct appeal, and we determined that
briefing was necessary, because, on the face of the record, the claim lacked merit.”

no additional

Id. at *2. Thus,

Defendant’s claim that this Court should reconsider the denial of the suppression motion is barred
by collateral estoppel. See State v. McBride, 848 So. 2d 287, 291* (Fla. 2003) (Holding that
collateral estoppel precludes relitigation of an issue in a subsequent but separate cause of action
and its intent to prevent parties from rearguing the , same issues that have be
3een decided between
y

>

them applies in the postconviction context.);^* v. State, 873 So. 2d 1250,,1252 (Fla. 5th DCA*
2004) (Holding that since defendant’s issue, was* fully litigated in a final decision of the Second
Judicial Circuit, he was estopped from relitigating the issue again.). Thus/Defendant is estopped
from relitigating the issue of the denial of the motion to suppress, and this Court will
an amended motion for reconsideration.

3

not consider

